WAEV
SUPREME COURT OF THE UNITED STATES
No. 121-5934
L

ICharles Ivan Branham
(Petitioner)

Montana, et al.
V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ ofcertiorari unless one is requested by
the Court.

Please check the appropriate box:
I am filing this waiver on behalf of all respondents.

0 I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: [~^W&Z-?^y^~
Date:

(Type or print) Name JMardell Ployhar
0 Mr. © Ms.

0 Mrs.

Miss

Firm jMontana Attorney General
Address |215 N. Sanders P.O. Box. 201401

Zip &9601

City & State jHelena, MT
r—

Phone 1406-444-2026

Email lmployhar@mt.gov

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.
IPalmer Hoovestal
ec:
(

